 

 

In the

Supreme Court of the United States

 

MARK ELDON WILSON, Petitioner
v.

UNITED STATES OF AMERICA, Respondent

 

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Joshua D. Weiss, hereby certify that on September 14, 2021, a copy of
petitioner’s Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
were mailed postage prepaid, to the Solicitor General of the United States,
Department of Justice, Room 5614, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001, counsel for the Respondent.
In addition, a copy of petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit was emailed to the Solicitor General at

SupremeCtBriefs@usdoj.gov.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: September 14, 2021 By: \ oN \ \A Mm
JOSHUA D. WEISS*
Deputy Federal Public Defender

Attorneys for Petitioner
*Counsel of Record
